PERFORMANCE AUDIT OF THE


Tuskegee Human and Civil
Rights Multicultural Center
Grant
GRANT: AL-16572

OIG REPORT NUMBER: 13-28

GRANT PERIOD: OCTOBER 2010 – JANUARY 2013
Appalachian Regional Commission 
1666 Connecticut Avenue, N.W.
Suite 700
Washington, DC 20009-1068

Mr. Hubert N. Sparks
Inspector General

Transmitted herewith is a report of Watkins Meegan LLC, a Performance Audit of the Tuskegee Human and Civil
Rights Multicultural Center Grant AL-16572. The report is in response to Contract No. BPA 11-01-B.




Tysons, Virginia
September 30, 2013
                           Tuskegee Human and Civil Rights Multicultural Center Grant

                                                     AL-16572


Background
The Appalachian Regional Commission (ARC) is a regional economic development agency that represents a
partnership of federal, state and local governments. Established by an act of Congress in 1965, ARC is composed
of the governors of the 13 Appalachian states and a federal co-chair who is appointed by the President. Local
participation is provided through multi-county local development districts (LDDs). Each year, ARC provides
funding for several hundred projects in the Appalachian Region, in areas such as business development,
education and job training, telecommunications, infrastructure, community development, housing and
transportation. These projects help create jobs; improve local water and sewer systems; increase school
readiness; expand access to health care; assist local communities with strategic planning; and provide technical
and managerial assistance to emerging businesses.

The Tuskegee Human and Civil Rights Multicultural Center (the Center, or the Grantee) is a not-for-profit
company that provides educational activities related to human rights, civil rights, historic preservation and cultural
preservation for the Tuskegee and Macon County communities. The Center was founded in 1997 and is located
in a former bank building in downtown Tuskegee. Over time, the facility's interior has evolved into a museum and
it now showcases permanent exhibits and facilitates regular educational programs. Programs include interpretive
tours for school groups and adults, a national teacher training program and special programs featuring civil rights
activists. The Center also hosts traveling exhibits from major museums and locally produced companion exhibits,
targeted activities for high school students and a general public lecture series.

On September 22, 2010, ARC approved the Tuskegee Human and Civil Rights Multicultural Center grant (Grant),
project number AL-16572, in the amount of $200,000 for the period October 1, 2010 to October 1, 2011. The
Grant required $52,100 of state and local (non-federal) matching funds, for total funding of $252,100. Through a
total of three subsequent amendments approved by ARC, the performance period was extended to January 31,
2013. Grant funds were to be used to expand the gift shop inside the museum to provide additional space for
local retailers to sell merchandise and to enable acquisition of point-of-sale (POS) software and hardware for the
gift store. An enhanced website with e-commerce capabilities was also to be developed as part of this process.
Grant funds were also to be used to increase the number of exhibits in the museum, acquire electronic devices for
self-guided tours and to increase the number of educational lectures and workshops held in the Center.

Objective
Watkins Meegan LLC was engaged to conduct a performance audit of the Tuskegee Human and Civil Rights
Multicultural Center Grant for the period October 1, 2010 to January 31, 2013. The purpose of our performance
audit was to determine the following:

       Funds expended and claimed for reimbursement from ARC were valid program expenses and in
        accordance with the ARC Grant requirements;
       Internal controls were in place to ensure compliance with the Grant requirements; and
       Goals and objectives of the Grant had been achieved.

Executive Summary
Grant funds were used to expand the gift shop inside the museum and purchase POS software and hardware. An
enhanced website with e-commerce capabilities was also developed. Grant funds were also used to increase the
number of exhibits in the museum and enhance permanent exhibits by incorporating technology with mobile
hand-held devices, expanding video, photographs and audio materials. In general, the Center met or exceeded
the targeted outcomes and outputs associated with the Grant.



                                                          1
                          Tuskegee Human and Civil Rights Multicultural Center Grant

                                                    AL-16572


ARC reimbursed the Grantee $200,000 of expenses for the period October 1, 2010 to January 31, 2013.
Reported matching funds provided from non-federal sources totaled $97,023 for the same period. The total
expenditures reported by the Center for the performance period were $297,023, 18 percent over the original
approved budget of $252,100, with the variance derived from additional reported matching funds. A revised
budget totaling $297,000, inclusive of the increased matching fund component, was provided to ARC in March
2012.

A number of findings were noted regarding the lack of formal Grant-related records, including accounting records,
invoice approvals and payroll approvals. Given the limitations noted in the findings below we were unable to
conclude on the overall validity and appropriateness of the non-personnel expenditures recorded against the
Grant. Testing of a selection of invoices obtained from the Center indicated that those specific expenditures were
valid and appropriate under the terms and conditions of the Grant, with the exception of two transactions totaling
$1,624 that fell outside the performance period of the Grant. Details for each of the findings can be found below.

Scope
We performed a performance audit of the Tuskegee Human and Civil Rights Multicultural Center Grant AL-16572
at the Center’s office in Tuskegee, Alabama from August 10 through August 12, 2013, as described under this
section and under the audit methodology section. Our audit was based on the terms of the Grant agreement and
on the application of procedures in the modified ARC Audit Program.

We conducted this performance audit in accordance with Generally Accepted Government Auditing Standards
(GAGAS). Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit objectives.

Audit Methodology
Our procedures were based on the Audit Program guidelines provided by the ARC Office of the Inspector General
and included suggested procedures over the Center’s accounting and internal control systems affecting the
Grant. We met with the Executive Director and Program Director of the Center to discuss the structure, controls
and processes around Grant administration and monitoring. We also discussed and reviewed other financial and
operational elements related to the conduct of the program.

Our review of background material included ARC’s Grant Agreement and related documentation, ARC Grant
approvals and the Grant applications, and the Center’s annual tax return for FY2012 that was obtained in lieu of
audited financial statements for the Center.

We made inquiries regarding whether the goals and objectives of the project funded with ARC monies had been
met and reviewed supporting evidence to assess the accomplishment of the outputs and outcomes identified in
the Grant application, including touring the museum and gift shop and accessing the enhances web-site.

We reviewed controls in place for recording, accumulating, and reporting costs under the Grant. This included
meeting with the Executive Director and Program Director to understand how their daily activities and
responsibilities supported the administration of the Center’s ARC program. We reviewed representative
supporting documentation related to Grant activities for consistency with applicable performance measures.




                                                        2
                          Tuskegee Human and Civil Rights Multicultural Center Grant

                                                    AL-16572


Finally, we examined a sample of payroll detail and related records for the staff whose employment was
supported by matching funds. We also inquired of key staff and reviewed supporting documentation (invoices,
vouchers, cost allocation reports, etc.) regarding the supplies, contractual, and other direct costs that were paid
for by ARC funds to determine whether they were allowable costs and that the expenses supported the Grant
activities.

Results
Compliance with Grant Provisions
Grant funds were used to expand the gift shop inside the museum and purchase POS software and hardware. An
enhanced website with e-commerce capabilities was also developed. Grant funds were also used to increase the
number of exhibits in the museum and enhance permanent exhibits by incorporating technology with mobile
hand-held devices, expanding video, photographs and audio materials. During the audit, we toured the facility to
observe the changes implemented through the support of Grant funds, and reviewed event calendars and vendor
records to validate reported outcomes and outputs. Through these steps we confirmed that the Center met or
exceeded the targeted outcomes and outputs associated with the Grant.

ARC reimbursed the Grantee $200,000 of expenses for the period October 1, 2010 to January 31, 2013.
Reported matching funds provided from non-federal sources totaled $97,023 for the same period. The total
expenditures for the performance period were $297,023, 18 per cent over the original approved budget of
$252,100, with the excess being additional reported matching funds.

A number of findings were noted regarding the lack of formal Grant-related records, including accounting records,
invoice approvals and support for payroll expense allocations. The Center was unable to provide a schedule of
expense transactions that reconciled to the ARC and matching expenses itemized in the reimbursement requests
submitted to ARC. Absent a complete list from which to select a testing sample, we were unable to conclude on
the overall validity and appropriateness of the non-personnel expenditures recorded against the Grant. However,
testing of a selection of invoices obtained from the Center indicated that expenditures recorded against the Grant
were valid and appropriate under the terms and conditions of the Grant, with the exception of two transactions
totaling $1,624 that fell outside the performance period of the Grant. Through our review of the invoices available
for testing we noted a separation of duties issue due to a family relationship between the parties currently
responsible for approving invoices and payments.

At the conclusion of the audit, we noted and discussed the following items with Management, who generally
agreed with the findings and recommendations as described below:

Finding – Inadequate Accounting Records
ARC Grant terms and conditions and the associated OMB circulars governing the Grant award require that
adequate accounting records be maintained for grant funds. During the audit, the Center was unable to provide
detail of expense transactions that reconciled to the total ARC and matching funds of $297,023 as reported by the
Center during the period of October 1, 2010 through January, 31, 2013. This limited our ability to select an
independent sample of expenses for testing purposes; however, the Center did provide support for 18
transactions totaling $156,623 which were reported to ARC. This represents approximately 55 percent of the total
non-payroll expenses reported to ARC of $282,143, inclusive of $82,143 matching costs.




                                                        3
                          Tuskegee Human and Civil Rights Multicultural Center Grant

                                                    AL-16572


Recommendation:
Management must maintain appropriate accounting records in support of the use of Grant funds. The charges
accumulated against the Grant should be easily identifiable within the general ledger and separable between ARC
and matching expenses. Management should implement policies and procedures to ensure that costs reimbursed
with ARC funds can be identified and reconciled to the reimbursement requests and periodic reporting provided to
ARC. Management should provide ARC with a detailed reconciliation of expenses allocated to the Grant to
ensure that the amounts claimed for reimbursement from ARC can be appropriately supported. Any expenses
that cannot be supported may need to be refunded to ARC.

Finding – Lack of Required Clauses in ARC-Funded Contractual Agreements
ARC terms and conditions require that any agreements between grantees and vendors supported by ARC funds
include provisions, terms and conditions to ensure vendor compliance with federal standards and ensure that the
protections afforded ARC through the terms and conditions of the Grant agreement are held intact through any
Grant-funded sub-contract or vendor agreement entered into by grantees. The Center entered into an ARC-
funded agreement for $123,500 with a company to design and build exhibits that did not include the required
clauses.

Recommendation:
Management should ensure that contracts and agreements supported by ARC funds include all required clauses
and implement a process to monitor vendor compliance with the requirements.

Finding – Expenses Incurred Outside the Grant Period of Performance
ARC Grant terms and conditions require that costs allocated to any Grant are only valid when incurred during the
period of performance for the Grant. Through testing of expenses, it was noted that two invoices in the testing
sample were invoiced after the period of performance ended. The two transactions totaled $1,624 and were
invoiced in February and March 2013, after the January 31, 2013 period of performance end date.

Recommendation:
All expenses related to the program should have been incurred within the period of performance. The Center
should follow up with their ARC point of contact to provide any additional support to validate the expenses
referenced and determine the appropriate treatment. If no additional support is available the costs may need to be
refunded to ARC.

Finding – Lack of Support for Payroll Costs
Matching costs allocated to the Grant included $14,880 in personnel costs, comprised of $12,000 in direct and
contract-labor costs and $2,880 in allocated benefit costs. Based on supporting documentation, these charges
represented 10 percent of the annual costs for the Executive Director (a contractor) and 20 percent of the annual
costs for the Program Director. No timesheets or equivalent schedules were available to support the proportion of
the total salary and benefit costs allocated to the Grant for the individuals concerned.

Recommendation:
Management should ensure that labor costs allocated to the Grant are appropriately supported by timesheets or
equivalent analysis of the proportionate level of effort expended on Grant activities by the individuals concerned.




                                                        4
                          Tuskegee Human and Civil Rights Multicultural Center Grant

                                                    AL-16572


Finding – Separation of Duties
Through review of the invoice approval process, we noted that the Program Director performs the initial review of
vendor invoices and payroll for approval. Once approved, the Program Director forwards the invoices to the
Center’s President for secondary approval. The President is also the signatory on check payments for the Center.
The President and Program Director have a father-daughter relationship.

Recommendation:
Management should appropriately segregate the roles and responsibilities of related parties to ensure that roles
are appropriately separated and no real or apparent conflict exists. Responsibilities for final approval of vendor
invoices and payroll and subsequent signing of checks should be assigned to an alternate board member (e.g.,
the Treasurer) who is not a related party to the Program Director.

Observation – Lack of Evidence of Invoice Approvals
Original invoices provided by the Center in support of expenses charged to the Grant did not include any
evidence to indicate that they were appropriately reviewed and approved prior to payment being processed.
Under the current process, invoices should be approved by the Program Director and President of the Board. The
President then writes and signs checks to pay the invoices before submitting the invoice and payment details to
the Center’s accountant for recording in the accounting records.

Recommendation:
Management should implement a policy that requires evidence of approval of vendor invoices to be properly
documented by the appropriate personnel.




                                                        5
                www.WatkinsMeegan.com

BETHESDA   ❘   ANNAPOLIS   ❘   TYSONS CORNER   ❘   HERNDON
